Memorandum from the Office of the Inspector General



January 7, 2010

Janet C. Herrin, WT 10D-K

FINAL REPORT – INSPECTION 2009-12652 – REVIEW OF TVA'S RESERVOIR
OPERATIONS



Attached is the subject final report for your review. This report does not include any
recommendations and is to be used for informational purposes only. Accordingly, no
response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Michael A. Driver, Project Manager, at
(423) 785-4813 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
at (423) 785-4810. We appreciate the courtesy and cooperation received from your staff
during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MRP:NLR
Attachment
cc (Attachment):
     Peyton T. Hairston, Jr., WT 7B-K
     Susan R. Jacks, WT 10C-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     David R. Mould, WT 7B-K
     Emily J. Reynolds, OCP 1L-NST
     Joyce L. Shaffer, WT 9B-K
     John M. Thomas III, MR 3S 120
     OIG File No. 2009-12652
             Tennessee Valley Authority
             Office of the Inspector General
 

Inspection Report
     



                                                

                                                

 

 

 

 
REVIEW OF TVA’S
 


RESERVOIR
OPERATIONS
 




 

 
 
 

 
                       Inspection 2009-12652
                             January 7, 2010
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 1

FINDINGS ......................................................................................................... 2
  TVA HAS DEVELOPED CRITERIA THAT GOVERN
  RESERVOIR OPERATIONS ............................................................................. 2

  U.S. ARMY CORPS OF ENGINEERS BALANCES SIMILAR
  OBJECTIVES AND OPERATES SIMILARLY TO TVA ...................................... 6

  TVA COMPLIED WITH THE KEY ELEMENTS OF THE RESERVOIR
  OPERATIONS STUDY PREFERRED ALTERNATIVE ..................................... 7


APPENDIX
RESERVOIR OPERATIONS STUDY COMPLIANCE INDICATOR TRACKING
SHEET




Inspection 2009-12652
                                                       January 2010
                    TVA Office of
                    the Inspector                      Inspection 2009-12652
                                                       Review of TVA's Reservoir Operations
                    General

Why the OIG Did This Review                            What the OIG Found
Based upon questions posed to OIG personnel            Our review found TVA has Board-approved guidelines that
regarding TVA's criteria for the adjustment of         were developed with public input in 2004.
tributary water levels, the OIG conducted a
review of TVA's Reservoir Operations.                  We noted in discussion with two offices of the U.S. Army
                                                       Corps of Engineers that they balance similar objectives
TVA is responsible for managing a range of             and manage their reservoirs in a like manner as TVA's by
programs in the Tennessee River Valley for the         balancing such goals as:
use, conservation, and development of the
water resources related to the Tennessee               • Water supply.
River. In carrying out this mission, TVA               • Water quality.
operates a system of dams and reservoirs with
                                                       • Navigation.
associated facilities—its water control system.
As directed by the TVA Act, TVA uses this              • Hydroelectric power.
system to manage the water resources of the            • Recreation.
Tennessee River for the purposes of
navigation, flood control, power production and,       The U.S. Army Corps of Engineers confirmed that, like
consistent with those purposes, for a wide             TVA, they lower their reservoirs in the winter in order to
range of other public benefits.                        provide flood control in anticipation of spring rains. Also,
                                                       they raise reservoir levels in the summer months to
The objectives of our review were to determine         provide recreational opportunities as well as meet other
(1) whether criteria exist to balance the              goals.
competing objectives of managing water in
TVA reservoirs, (2) how those objectives               We performed testing based upon the approved TVA
compare to those of the U.S. Army Corps of             guidelines and found no issues. Specifically, we found
Engineers, and (3) whether TVA was following           that there were no issues related to the following summer
its criteria. This report encompasses TVA-             criteria:
managed lakes, tributaries, and overall
                                                       • Recreational Releases (releases water to enhance
Reservoir Operations.
                                                         recreation opportunities).
                                                       • Chickamauga Flow (the required flow through
                                                         Chickamauga Dam).
                                                       • Tributary Balancing (ensuring that no individual
                                                         tributary is disproportionately affected when meeting
                                                         river system minimum flow goals).
                                                       Lastly, we found there were no issues related to the
                                                       following nonsummer criteria:
                                                       • Minimum Flow Commitments, which is measured in
                                                         pulse commitment violations (a pulse represents a
                                                         release of an agreed-upon amount of water, and a
                                                         violation is an instance where TVA does not provide the
                                                         pulse on time).
                                                       • Flood Storage Availability (flood storage is defined as
                                                         the volume, or capacity, in a reservoir that is reserved
                                                         for the storage of flood water, and anytime a tributary's
For more information, contact Robert E. Martin at
(865) 633-7450 or remartin@tvaoig.gov; or Gregory C.     headwater elevation exceeds the flood guide, it is in
Jaynes at (423) 785-4810 or gcjaynes@tvaoig.gov.         violation).


                                                                                                            Page i
Office of the Inspector General                                                         Inspection Report


BACKGROUND
Tennessee Valley Authority (TVA) is responsible for managing a range of
programs in the Tennessee River Valley for the use, conservation, and
development of the water resources related to the Tennessee River. In carrying
out this mission, TVA operates a system of dams and reservoirs with associated
facilities—its water control system. As directed by the TVA Act, TVA uses this
system to manage the water resources of the Tennessee River for the purposes
of navigation, flood control, power production and, consistent with those
purposes, for a wide range of other public benefits. Based upon questions posed
to Office of the Inspector General personnel regarding TVA's criteria for the
adjustment of tributary water levels, we initiated a review of TVA's Reservoir
Operations.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our review were to determine (1) whether criteria exist to
balance the competing objectives of managing water in TVA reservoirs, (2) how
those objectives compare to those of the U.S. Army Corps of Engineers, and
(3) whether TVA followed its criteria. This report encompasses TVA-managed
lakes, tributaries, and overall Reservoir Operations.

To achieve our objectives, we:

•     Interviewed key TVA personnel to obtain an understanding of River
      Operations and the criteria that govern the reservoir system operations.
•     Obtained supporting documentation to identify what criteria TVA has
      regarding the management of reservoirs.
•     Reviewed and summarized key policies and procedures identified to gain
      program understanding.
•     Identified performance measures being tracked by Reservoir Operations to
      assess guideline compliance. We tested:
         All weekly Reservoir Operations Study Compliance Indicator1 tracking
          sheets for June 1, 2009, through August 2, 2009, to determine adherence
          to the Reservoir Operations Study commitments for:
          – Recreational flow commitment.
          – Chickamauga flow commitment.
          – Tributary balancing.




1
    The Appendix provides an example of a Reservoir Operations Study Compliance Indicator tracking sheet
    that was used to document weekly performance.
Inspection 2009-12652                                                                             Page 1
Office of the Inspector General                                                              Inspection Report


         Documentation of Pulse2 Violations and Flood Storage availability from
          October 1, 2008, through March 31, 2009, to determine adherence to
          established minimum flow commitments and flood storage availability
          goals.

This Inspection was conducted in accordance with the "Quality Standards for
Inspections."


FINDINGS
We found that TVA has developed and gained Board approval of the Reservoir
Operations Study Preferred Alternative to guide the operations of the reservoirs.
We noted in discussions with the U.S. Army Corps of Engineers that they
balance similar objectives and operate their reservoirs in a similar fashion as
TVA's. We also found that TVA complied with selected commitments required by
the Reservoir Operations Study Preferred Alternative for the periods we
reviewed.

TVA HAS DEVELOPED CRITERIA THAT GOVERN RESERVOIR
OPERATIONS
We found that TVA has defined criteria for the operation of the reservoir system.
On May 19, 2004, the TVA Board approved a new reservoir operations policy,
the Reservoir Operations Study Preferred Alternative, to be enacted on June 1,
2004. The policy was derived to provide increased opportunities for reservoir
and tailwater recreation while meeting other operating objectives that include
among others:

•     Navigation
•     Flood control
•     Power production
•     Water supply
•     Water quality

The Reservoir Operations Study Preferred Alternative was developed and
approved by the TVA Board after (1) receiving public input and (2) consideration
of 25 alternatives. We also noted that TVA has used appropriate means to
communicate its reservoir criteria and activities.




2
    A pulse is when TVA releases a specified amount of water at a specific time(s) to a tributary to meet
    minimum flows.
Inspection 2009-12652                                                                                   Page 2
Office of the Inspector General                                                   Inspection Report


Public Input
In 1999, the Government Accountability Office released a report3 providing
information on, among other things, TVA's plans for Reservoir System
operational changes. The report specifically recommended TVA, "provide for a
formal and continuing communication process for the public and other
stakeholders to actively participate in TVA's efforts to reexamine its policies
impacting lake levels." To satisfy this, the Reservoir Operations Study solicited
public input on how and what to change regarding the reservoir policy. TVA
stated in the published Reservoir Operations Study that in the course of the study
TVA:

•    Mailed 60,000 letters to stakeholders in the Tennessee Valley.
•    Received more than 6,000 individual comments.
•    Received 4,200 form letters.
•    Was given a petition with more than 5,400 signatures.
•    Surveyed 3,600 residents at home.

The Reservoir Operations Study also conducted workshops to obtain public
input. From these workshops, TVA found that the public's top priorities were:

•    Recreation (34 percent of respondents).
•    Environment (21.5 percent).
•    Flood Control (21.5 percent).

Some concerns were identified through the public input process and noted in the
Reservoir Operations Study. Specifically, it was noted that the public wanted
consideration given to (1) holding reservoir levels stable, (2) delaying the date in
which summer water levels are lowered, (3) raising the water levels earlier to
increase fish spawning, and (4) increasing the amount of water releases by
various dams to improve fishing conditions. In addition to the public input, the
Reservoir Operations Study stated that the U.S. Army Corps of Engineers as well
as the U.S. Fish and Wildlife Service participated in the development of the new
guidelines.

Policy Alternatives
TVA developed 25 policy alternatives and performed computer simulations on
each to measure and evaluate (1) reservoir elevations, (2) streamflow conditions,
(3) water availability during varying hydrological conditions, and (4) for some
alternatives, the cost of power and power availability. In the end, TVA
considered in-depth eight policy alternatives which included the alternative to not
change their current operation. The Reservoir Operations Study Preferred
Alternative was ultimately decided upon. This alternative operates the reservoir


3
    1999 Government Accountability Office report, "TENNESSEE VALLEY AUTHORITY: Future Study of
    Lake Levels Should Involve Public and Consider Cost and Benefits."
Inspection 2009-12652                                                                       Page 3
Office of the Inspector General                                      Inspection Report


system to provide increased opportunities for reservoir and tailwater recreation
while meeting other operating objectives including navigation, flood control,
power production, water supply, and water quality.

While the Reservoir Operations Study Preferred Alternative provides
opportunities for increased recreation by increasing some of the summer and
winter reservoir elevations, it decreases the flood storage availability. As shown
in the following graphs of TVA's operating guide curves for both the Hiwassee
Tributary and the Blue Ridge Tributary, the summer and winter elevations were
increased under the Reservoir Operations Study Preferred Alternative.
Specifically, the white triangles in the graphs represent the base case scenario or
what was in effect previous to the new policy, and the black triangles represent
the Reservoir Operations Study Preferred Alternative operating guidelines.

              Graph 1: Hiwassee Reservoir Elevation Guide by Month




Inspection 2009-12652                                                          Page 4
Office of the Inspector General                                                      Inspection Report


             Graph 2: Blue Ridge Reservoir Elevation Guide by Month




Additionally, while TVA was performing its Reservoir Operations Study, The
University of Tennessee Center for Business and Economic Research released a
May 2003 study4 of TVA's lake level management in East Tennessee. In this
study, the report concluded the following:

          Based on the survey of recreators it is estimated that $5.4 million in
          new spending would take place within the multi-county lake region
          on the part of nonresidents should drawdowns be delayed to the
          end of September. Inclusive of the ripple effects of the multiplier,
          this initial spending would yield $2.35 million in new income for area
          residents and 124 annual full-time equivalent jobs (or 744 jobs for
          the two-month period of August and September). Increased
          recreation activity by nonresidents would boost Tennessee (as
          opposed to only lake-region) income by $1.9 million and add
          100 annual jobs (or 600 jobs for August and September).

As stated above, this independent study concluded that delaying the drawdown
of lakes would result in economic benefits for the region. Our review found that
the subsequent Reservoir Operations Study Preferred Alternative did result in
higher reservoir elevations throughout the year.




4
    The University of Tennessee Center for Business and Economic Research: TVA Lake Level
    Management Study, May 2003.
Inspection 2009-12652                                                                          Page 5
Office of the Inspector General                                                    Inspection Report


Communication of Operations
In order to communicate TVA's criteria for, and overall operations of, its
Reservoir System, TVA has employed various means to inform the public of its
activities. Such communications have included:

•     Press releases.
•     River Neighbors e-newsletters distributed via e-mail as well as regular mail for
      those without Internet access.
•     A communications tour providing information to local newspapers and lake
      interest groups during public forums.
•     A comprehensive Web site detailing the operations of each reservoir.
•     Talking points drafted to answer questions from those who call TVA with
      questions.

To determine the efficacy of TVA communications practices, we interviewed
TVA's Senior Vice President of Communications and reviewed the various
means of communication. While being relatively new to TVA, TVA's Senior Vice
President of Communications' background in various industries gives him unique
perspective to comment on TVA's communications efforts related to reservoir
operations. He noted that, based on his experience at other government
organizations, TVA's communications practices in this area were reasonable. As
a result of our consideration of the various means of communication TVA
employs and discussions with TVA's Senior Vice President of Communications,
we believe TVA makes a reasonable effort to inform the public about its reservoir
operations.

U.S. ARMY CORPS OF ENGINEERS BALANCES SIMILAR
OBJECTIVES AND OPERATES SIMILARLY TO TVA

To obtain a comparison to other entities that control reservoir systems, we
contacted the U.S. Army Corps of Engineers' Nashville office as well as the
Mobile, Alabama, office which has responsibility for selected North Georgia
reservoirs. In our discussions, we were informed that the U.S. Army Corps of
Engineers operates under similar purposes and objectives as TVA's. They
operate their reservoirs in a manner so as to balance such priorities as (1) water
supply, (2) water quality, (3) navigation, (4) hydroelectric power, and
(5) recreation.

We were also informed that dam safety and flood control were also goals of the
overall operation. Both U.S. Army Corps of Engineers' offices informed us that
each project5 has a guide curve, and the water in the particular projects is
(1) drawn down in the winter to allow for flood storage in anticipation of spring
rains and (2) raised in the summer to provide for additional recreation. This is
similar to the manner in which TVA manages its reservoirs.

5
    River Operations uses project to refer to a tributary or mainstem reservoir.
Inspection 2009-12652                                                                        Page 6
Office of the Inspector General                                      Inspection Report


We also noted in our discussion with the U.S. Army Corps of Engineers and TVA
that the topography of reservoirs are different from one another. Therefore, the
differences in the drawdown for lakes would be different. For example, a five-
foot drawdown on a shallow, broad surface lake would be different than a deep,
narrow surface lake. Because of this, the drawdown amounts, in terms of
elevation, will be different for each reservoir. U.S. Army Corps of Engineers'
officials in Nashville said they were in daily contact with TVA and were
complimentary of TVA operations.

TVA COMPLIED WITH KEY ELEMENTS OF THE RESERVOIR
OPERATIONS STUDY PREFERRED ALTERNATIVE
Our review found that TVA was in compliance with key elements of the TVA
Board-approved Reservoir Operations Study Preferred Alternative. Specifically,
during the:

•   Summer months, those key elements are recreation flow commitments,
    Chickamauga flow commitments, and tributary balancing ratios.
•   Nonsummer months, those key elements are water releases to meet
    minimum flow commitments (i.e., which is measured by pulse commitment
    violations) and flood storage availability.

Recreation Flow Commitment
As a part of the Reservoir Operations Study Preferred Alternative, TVA has
committed to providing recreational releases of water at the Apalachia, Norris,
Ocoee No. 1, and Watuaga/Wilbur reservoirs in addition to other releases they
work to achieve. Based on our test results, we conclude that for the period we
reviewed, TVA met the new recreational flow commitments. Specifically, we
found from June 1, 2009, to August 2, 2009, TVA met 152 of the 153 required
recreational flow commitments for the four reservoirs.

One commitment for the Norris Reservoir was not met due to a forced outage.
We noted that the problem was resolved within 25 minutes from the designated
start of the scheduled commitment, and the normal flow commitment was fulfilled
for 4 hours after problem resolution. However, because the turbine was not
activated within the {REDACTED} window of the commitment schedule, the
commitment was not counted as being met.

Chickamauga Flow Commitment
The Chickamauga flow commitment is designed to ensure there is adequate flow
across the entire TVA river system. To do so, TVA has set certain guidelines for
flows going through the Chickamauga Reservoir. Depending on hydrological
conditions at the time, the targeted average flow may be adjusted; therefore, it is
possible to have multiple targets within the same week. We reviewed the
Chickamauga flows from June 1, 2009, to August 2, 2009, to assess whether the
targeted average flow goal:


Inspection 2009-12652                                                          Page 7
Office of the Inspector General                                          Inspection Report


•     Was met within {REDACTED} when the sum of the storage in the ten
      tributaries was above the minimum operations guide parameters; or
•     Was equal to 13,000 cubic feet per second {REDACTED} when the sum of
      the storage in the ten tributaries was below the minimum operations guide
      parameters.

As shown in Table 1 below, all targets were met except those where the system
was recovering to flood guide.

Table 1 – Chickamauga Flow

                         TVA Targeted
                        Average Weekly    Average Weekly
    Week in FY 2009                                           Result
                         Flow in Cubic    Flow Achieved
                        Feet Per Second
         06/07               14,000           28,757        Above Target
                                                           (Recovering to
                                                             flood guide)
         06/14                15,000          28,073        Above Target
                                                           (Recovering to
                                                             flood guide)
         06/21                16,000          28,518        Above Target
                                                           (Recovering to
                                                             flood guide)
         06/28                17,000          32,076        Above Target
                                                           (Recovering to
                                                             flood guide)
         07/05                19,000          19,211          On Target

     07/06 - 07/11            21,000          20,759         On Target


         07/12                13,000          13,148         On Target
      07/13- 07/17            23,000          23,071         On Target


     07/18 - 07/19            13,000          13,090         On Target
     7/20 - 7/21 &            13,000          13,050         On Target
      7/23 - 7/26

          7/22                25,000          25,032         On Target
       7/27-7/31              25,000          25,270         On Target

        8/1-8/2               29,000          29,279         On Target




Inspection 2009-12652                                                              Page 8
Office of the Inspector General                                                          Inspection Report


In summary, our testing found both during normal target conditions and modified
target conditions, all targets were met except those where the system was
recovering to flood guide due to the hydrological conditions. Specifically, we
noted:

•     Four weeks above target where tributaries were recovering to flood guide due
      to excess rain.
•     One week where the tributary system went above the system minimum
      operating guide and the target was revised to 25,000 cubic feet per second
      {REDACTED} in accordance with established processes.
•     Three weeks where the tributary storage system fell below the minimum
      operations guide and the target was revised to 13,000 cubic feet per second
      {REDACTED} in accordance with established processes.

Based on our test results, we conclude that TVA met the Chickamauga flow
requirements of the Reservoir Operations Study Preferred Alternative for the
period we reviewed.

Tributary Balancing
As a part of the Reservoir Operations Study Preferred Alternative, TVA has
committed to keep ten upstream tributaries6 balanced in relation to one another
to ensure that no particular reservoir is adversely affected when meeting
downstream flow requirements. To be considered balanced, the ratios must be
+/- 0.05 of the ratio average on Sunday nights when the measurements are
tested.

We tested nine weeks of balancing ratios to determine whether TVA was meeting
its commitment and found the reservoirs were balanced for all nine weeks tested.
We noted that in four of the nine weeks reviewed, certain reservoirs were
excluded from the balancing calculation primarily due to heavy rains received in
the general area of that reservoir which pushed the headwater elevation to the
flood guide level. Our review of documentation and interviews with the Reservoir
Operations staff found they have some leeway to the balancing when certain
hydrological conditions such as heavy rain or drought exist. There was also one
week where a reservoir was excluded due to a recreational commitment made by
the reservoir team.

Based on our test results, we conclude that TVA fulfilled the tributary balancing
requirement of the Reservoir Operations Study Preferred Alternative for the
period we reviewed.




6
    These tributaries are South Holston, Watauga, Cherokee, Douglas, Fontana, Norris, Chatuge, Nottely,
    Hiwassee, and Blue Ridge.
Inspection 2009-12652                                                                               Page 9
Office of the Inspector General                                         Inspection Report


Minimum Flow Commitments
The minimum flow commitments are designed to provide a specified amount of
water flowing through the various reservoirs. The minimum flow commitment is
measured by the number of pulse commitment violations. A pulse is where TVA
releases a specified amount of water at a specific time(s) to a tributary to meet
minimum flows. A pulse violation is where TVA did not meet the time agreement
or the target of amount of water released.

To test whether TVA met minimum flow commitments, we reviewed the number
of pulse violations from October 1, 2008, to March 31, 2009. We visually
inspected the log books for each of these months and verified the number of
violations. We noted no deviations from the percentage goal to be met, as
shown in Table 2. Therefore, based on our test results, we conclude that TVA
met minimum flow requirements for the period we reviewed.

Table 2 – Pulse Violations

                        Number of Site
                                         Number of
       Month                Days                       Percentage Met          Goal
                                         Violations
                          (29 Sites)
      October                899             9             99.0%              99.0%
     November                870             4             99.54%             99.0%
     December                899             3             99.67%             99.0%
      January                899             0              100%              99.0%
     February                812             1             99.88%             99.0%
       March                 899             3             99.67%             99.0%

Flood Storage Availability
TVA must retain a certain amount of flood storage, which is defined as the
volume or capacity, in a reservoir that is reserved for the storage of floodwater.
Anytime a tributary's headwater elevation exceeds the flood guide by more than
one foot, it is in violation.

To test whether TVA met flood storage availability requirements, we reviewed the
number of violations from October 1, 2008, to March 31, 2009, in relationship to
the goal for TVA's 12 projects (i.e., Chatuge, Nottely, Blue Ridge, Norris,
Douglas, Fontana, South Holston, Watauga, Tims Ford, Cherokee, Hiwassee,
and tributary system taken as a whole). We found TVA complied with its monthly
goals as to the cumulative percentage of time the projects were required to be
within flood zone requirements, as shown in Table 3. Therefore, based on our
test results, we conclude that TVA met its goal of keeping the tributaries within
the boundaries of their flood guides for the period we reviewed.




Inspection 2009-12652                                                           Page 10
Office of the Inspector General                                                 Inspection Report


Table 3 – Flood Storage Availability
                                                         Cumulative                  Actual
                    Number                      Days                     Goal
                                  Cumulative               Days                    Cumulative
                      of                       Above                  Percentage
     Month                         Project                 Above                   Percentage
                    Project                     Flood                    (TVA
                                    Days                   Flood                     Within
                     Days                      Storage                  Target)
                                                          Storage                  Flood Zone
    October           372            372         0           0          91.0%       100.00%
   November           360            732         4           4          86.0%         99.5%
   December           372           1104        125         129         81.0%         88.3%
    January           372           1476        201         330         71.0%         77.6%
   February           336           1812        102         432         64.0%         76.2%
     March            372           2184        137         669         59.0%         69.4%




Inspection 2009-12652                                                                   Page 11
                                                                                         APPENDIX
                                                                                         Page 1 of 1

                 Reservoir Operations Study Compliance Indicator

                             ROS COMPLIANCE INDICATOR
                  RO (OPERATIONS) SUB-COMPONENT TRACKING SHEET
                        FOR THE WEEK ENDING __6/7/09_______
                         Prepared by ___DAH_________________
                           Verified by _____________________

Tailwater Recreation Commitment

                   # ROS                   # of Commitments
Dam              Commitments               this week in 2005 *         Actual # Met

Apalachia           ___7__                      _____                     __7___
Norris              ___2__                      _____                     __2___
Watauga/Wilbur      ___6__                      _____                     __6__
Ocoee #1            ___2__                      _____                     __2___

*If different from original ROS commitments, explain why:
Kids fishing day conducted below NOH on 6/6 resulted in minimum flows until 1200.__________
_____________________________________________________________________________
_____________________________________________________________________________

Chickamauga Flow Commitment (applicable from June 1 through Labor Day)

Volume of water in storage                  8.28 million acre-ft
System MOG                                  7.94 million acre-ft
Weekly average flow target                  14000 cfs
Actual weekly average flow                  28757 cfs *

*If higher or lower than weekly average flow target, explain why:
CHH weekly flow due to tributary reservoirs recovering to flood guide.______________________
_____________________________________________________________________________
_____________________________________________________________________________

Uniformity of Tributary Balancing Ratio (applicable from June 1 through Labor Day)

Reservoir        Ratio     Balanced *          Balanced***                 Balanced***
                           (Yes or No)
South Holston 1.04_        ___Y_____           _________                  _________
Watauga         1.04_      ___Y_____           _________                  _________
Cherokee        1.04_      ___Y_____           _________                  _________
Douglas         1.05_      ___Y_____           _________                  _________
Fontana         1.07_      ___Y_____           _________                  _________          #met/
Norris          1.02_      ___Y_____           _________                  _________
        #included=
Chatuge         1.09_      ___Y_____           _________                  _________          10/10
Nottely         1.06_      ___Y_____           _________                  _________
Hiwassee        1.06_      ___Y_____           _________                  _________
Blue Ridge      1.08_      ___Y_____           _________                  _________

Average          1.06_**                 ______***                 ______***

*** See instructions for the use of this portion of the tracking sheet.
* A reservoir is balanced if the ratio is within +/- .05 of the average.
** If a reservoir is not included in the average, please list the one(s) not included and why.
_____________________________________________________________________________
_____________________________________________________________________________
